         Office of Inspector General




February 22, 2006

TIMOTHY C. HANEY
MANAGER, CAPITAL CUSTOMER SERVICE DISTRICT

SUBJECT:      Audit Report – Efficiency Review of the Washington Bulk Mail Center
              (Report Number NO-AR-06-003)

This report presents the results of our review of the Washington Bulk Mail Center (BMC)
located in the Capital Metro Area (Project Number 05YG019NO000). Our objective was
to determine the efficiency of operations at the Washington BMC. The audit was self-
initiated and conducted in cooperation with U.S. Postal Service Headquarters and local
BMC officials.

While the Washington BMC has experienced productivity gains, it could further improve
operational efficiency. Specifically, the Washington BMC did not adjust workhours in
response to changes in workload, attain the efficiency achieved by other BMCs, achieve
target productivities, or take full advantage of existing mechanization options.

The Washington BMC could improve efficiency by reducing 400,000 mail processing
workhours. This reduction would produce a cost avoidance of approximately
$118 million in labor savings over a 10-year period. We will report this figure as
funds put to better use in our Semiannual Report to Congress.

We made five recommendations in the report. Management agreed with our finding,
recommendations, and monetary impact and has initiatives in progress, completed, or
planned addressing the issues in this report. Management’s comments and our
evaluation of these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers recommendation 1
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. This
recommendation should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendation can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, or need additional information, please contact Robert J.
Batta, director, Network Operations - Processing, or me at (703) 248-2300.

/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Jerry D. Lane
    David E. Williams
    Jamie O. Fuentes
    Steven R. Phelps
Efficiency Review of the Washington                                      NO-AR-06-003
 Bulk Mail Center




                                      TABLE OF CONTENTS

 Executive Summary                                                                 i

 Part I

 Introduction                                                                     1

     Background                                                                   1
     Objective, Scope, and Methodology                                            3
     Prior Audit Coverage                                                         3

 Part II

 Audit Results                                                                    4

    Assessment of Washington Bulk Mail Center Efficiency                          4
    Recommendations                                                              12
    Management’s Comments                                                        12
    Evaluation of Management’s Comments                                          12

 Appendix A. Capital Metro Area Customer Service Districts by
             Three-Digit ZIP Code Area                                           13
 Appendix B. Prior Audit Coverage                                                14
 Appendix C. Washington Bulk Mail Center Suggestions for Improving
             Efficiency                                                          15
 Appendix D. Potential Workhour Savings at Washington Bulk Mail
             Center                                                              16
 Appendix E. Washington Bulk Mail Center Cost Avoidance (Funds Put
             to Better Use)                                                      17
 Appendix F. Management’s Comments                                               18

 TABLES AND ILLUSTRATIONS

 Tables

 Table 1.    Postal Service Package Delivery Market Share                         2
 Table 2.    Postal Service Package Volume                                        2
 Table 3.    Washington BMC High Earners                                          5
 Table 4.    Washington BMC Productivity Ranking                                  5
 Table 5.   FY 2004 National BMC Actual and Target Productivity Ratios
            for Mechanized/Automated Sack Processing Operations                   8
Efficiency Review of the Washington                                           NO-AR-06-003
 Bulk Mail Center



                   TABLE OF CONTENTS (Continued)

  Illustrations

  Illustration 1. BMC Locations                                                        1
  Illustration 2. Forklifts were used to transport mail in the absence of a
                   towveyor                                                            6
  Illustration 3. Idle employees in the nonmachinable outside (NMO)
                  operation                                                            7
  Illustration 4. Trays dumped onto the sack sorter machine broke open,
                  resulting in loose mail                                              8
  Illustration 5. Excessive amounts of loose mail had to be worked
                  manually                                                             9
  Illustration 6. Parcel sorter machine discharge slides were not cleared
                  promptly                                                            10
  Illustration 7. Parcel sorter machine mail allowed to drop on floor                 10
  Illustration 8. Over-the-road (OTR) containers were not emptied
                  promptly                                                            11
Efficiency Review of the Washington                                               NO-AR-06-003
 Bulk Mail Center


                                  EXECUTIVE SUMMARY
 Introduction                  The U.S. Postal Service Office of Inspector General
                               assessed the efficiency of mail processing operations at the
                               Washington Bulk Mail Center (BMC), located in the Capital
                               Metro Area. This is the first in a series of efficiency audits
                               that will be conducted at BMCs. The audit was self-initiated
                               and conducted in cooperation with U.S. Postal Service
                               Headquarters and local BMC officials.

 Results in Brief              While the Washington BMC has improved efficiency, further
                               opportunities exist for improvement. Specifically, the
                               Washington BMC did not adjust workhours in response to
                               changes in workload, attain the efficiency achieved by other
                               BMCs, achieve target productivities, or take full advantage
                               of existing mechanization options.

                               Title 39 of the United States Code Chapter 4, § 403 (a)
                               states “The Postal Service shall plan, develop, promote, and
                               provide adequate and efficient postal services . . . .” The
                               U.S. Postal Service Transformation Plan also recommends
                               that the Postal Service improve productivity.

                               The above conditions occurred because Washington BMC
                               management did not evaluate operational efficiency by
                               benchmarking operations against other BMCs, assessing its
                               machine utilization, analyzing workhour trends, and
                               adequately supervising its employees. In addition, the
                               Washington BMC did not fully assess its potential
                               automation and mechanization options. Consequently, the
                               Washington BMC was using more workhours than
                               necessary to process its mail volume.

                               Postal Service management agreed to reduce workhours by
                               400,000 by the end of fiscal year 2010 in anticipation of
                               increased performance targets. These actions could
                               produce a cost avoidance of over $118 million over the next
                               10 years.

 Summary of                    We recommended the manager, Capital Customer Service
 Recommendations               District, reduce workhours at the Washington BMC by
                               400,000 and periodically evaluate operating efficiency and
                               staffing. In addition, the manager should consider installing
                               a material container handling system and mechanizing the
                               nonmachineable outside operation. Finally, the manager


                                                i
Efficiency Review of the Washington                                               NO-AR-06-003
 Bulk Mail Center


                               should remove as much sack sorter equipment as possible
                               and improve supervision of employees.

 Summary of                    Management agreed with our finding, recommendations,
 Management’s                  and associated monetary impact. Management indicated
 Comments                      they have already begun to address the recommended
                               workhour reductions. Also, management agreed to
                               consider installing a material container handling system and
                               a mechanized solution for nonmachineable outside parcels.
                               They also agreed to reduce the use of sack sorters.
                               Furthermore, management agreed that proper supervision
                               of employees is essential and tasked the Washington BMC
                               manager with addressing these concerns. Management’s
                               comments, in their entirety, are included in Appendix F of
                               this report.

 Overall Evaluation of         Management’s comments are responsive to the audit
 Management’s                  finding and recommendations. The comments indicate
 Comments                      management is taking a proactive approach to improving
                               efficiency. Management’s response also indicated they
                               reviewed the material container handling system (the
                               towveyor) and determined that installation costs significantly
                               outweigh benefits. We consider this matter resolved.
                               Management’s actions, taken or planned, should correct the
                               issues identified in the report.




                                                ii
Efficiency Review of the Washington                                                                         NO-AR-06-003
 Bulk Mail Center



                                               INTRODUCTION
    Background                       Bulk Mail Centers (BMCs) are highly mechanized mail
                                     processing plants that are part of the National Bulk Mail
                                     System. These facilities distribute Parcel Post,1 Standard
                                     Mail,2 and Periodicals.3 The U.S. Postal Service
                                     developed a bulk mail network in the 1970s to maintain its
                                     share of the parcel market against the United Parcel
                                     Service (UPS) and built 21 plants (see Illustration 1
                                     below).

                                      Illustration 1. BMC Locations




                                     Many carriers serve the package delivery market. UPS;
                                     Federal Express; the Postal Service; and Dalsey,
                                     Hillbloon, and Lynn (DHL) are the larger players in the
                                     market. As seen in Table 1, the Postal Service has lost


1
  Parcel Post is mail that does not meet the mail processing category of letter-size mail or flat-size mail. It is usually
enclosed in a mailing container such as a carton.
2
  Standard Mail is a mail class that is not mailed as First-Class Mail or entered as Periodicals.
3
  Periodicals consist of magazines, newspapers, or other publications formed of printed sheets that are issued at
least four times a year from a known office of publication.




                                                             1
Efficiency Review of the Washington                                                   NO-AR-06-003
 Bulk Mail Center



                               market share in every segment of the package delivery
                               market.

                               Table 1. Postal Service Package Delivery Market Share

                                                 Overnight         Two- and
                                Fiscal Year         Air          Three-Day Air     Ground
                                2002              6 percent        74 percent     31 percent
                                2003              5 percent        71 percent     31 percent
                                2004              5 percent        71 percent     29 percent

                               Source: Fiscal Year (FY) 2004 USPS Household Diary Study

                               As shown in Table 2, Postal Service package volume
                               increased in FY 2004 after declining in FY 2003.
                               Households increased their use of both First-Class and
                               Priority Mail Package Services.

                               Table 2. Postal Service Package Volume
                                        (Units in Millions)


                                Mail Classification           FY 2002   FY 2003   FY 2004
                                First-Class and Priority        769       688       760
                                Standard Mail                   800       903       887
                                Package Services                639       647       724
                                Unclassified                    156       89        137
                                Total Packages                 2364      2327      2508

                               Source: FY 2004 USPS Household Diary Study

                               To process parcels more efficiently, the Postal Service has
                               developed automation to reduce manual handling and
                               increase capacity. New mail processing equipment, such
                               as the Singulate Scan Induction Unit (SSIU) and
                               Automated Package Processing System (APPS), has
                               raised BMC productivity and replaced less efficient
                               equipment.

                               The Washington BMC has the 12th largest mail volume of
                               the BMCs and is located in the Capital Metro Area. (See
                               Appendix A for a map of the Capital Metro Area.) During
                               the period FYs 2002 to 2004, the Washington BMC’s mail
                               volume declined by 18 billion pieces (15 percent) and
                               workhours declined by 120,110 hours (8 percent). Also,
                               during the same period, the Washington BMC did not


                                                  2
Efficiency Review of the Washington                                              NO-AR-06-003
 Bulk Mail Center


                               achieve performance targets as consistently as other
                               BMCs.

                               The organizational structure for the Washington BMC
                               differed from other BMCs. At the time of our audit, the
                               Washington BMC did not have a dedicated In-Plant,
                               Maintenance, and Transportation manager. Rather, these
                               functions were under the control of the adjacent
                               processing and distribution center. However, in FY 2005,
                               the Washington BMC established a conventional BMC
                               hierarchy with a dedicated management team.

 Objective, Scope,             The audit objective was to determine the efficiency of
 and Methodology               operations performed by the Washington BMC. To assess
                               the efficiency of the Washington BMC, we observed mail
                               processing operations, analyzed mail volumes and
                               workhours, evaluated machine use, and interviewed Postal
                               Service officials. In addition, we benchmarked productivity
                               against the other 20 BMCs located throughout the nation.

                               We relied on Postal Service operational systems, including
                               the National Workhour Reporting System, the
                               Breakthrough Productivity Initiative website, and the
                               Management Operating Data System. We did not test the
                               validity of controls over these systems. However, we
                               checked the accuracy of data by confirming our analysis
                               and results with Postal Service managers.

                               We conducted this audit from March 2005 through
                               February 2006 in accordance with generally accepted
                               government auditing standards and included such tests
                               of internal controls as we considered necessary under
                               the circumstances. We discussed our observations and
                               conclusions with management officials and included their
                               comments where appropriate.

 Prior Audit Coverage          We have issued 17 audit reports on workhour efficiency.
                               As a result of these audits, the Postal Service has agreed
                               to reduce 1,184,182 workhours. These reductions could
                               produce a cost avoidance of about $375 million over
                               10 years. (See Appendix B for details.)




                                                3
Efficiency Review of the Washington                                                                    NO-AR-06-003
 Bulk Mail Center


                                               AUDIT RESULTS
    Assessment of                    Management at the Washington BMC could use resources
    Washington Bulk                  more efficiently. Specifically, the Washington BMC did not:
    Mail Center
    Efficiency                             •   Adjust workhours in response to changes in workload.

                                           •   Attain the efficiency achieved by other BMCs.

                                           •   Achieve target productivities.

                                           •   Take full advantage of existing mechanization options.

                                     Title 39 of the United States Code Chapter 4, § 403 (a) states
                                     “The Postal Service shall plan, develop, promote, and provide
                                     adequate and efficient postal services . . . .” The U.S. Postal
                                     Service Transformation Plan also recommends that the Postal
                                     Service improve productivity.

                                     These conditions occurred because Washington BMC
                                     management did not evaluate operational efficiency by
                                     benchmarking operations against other BMCs, assessing its
                                     machine utilization, analyzing workhour trends, and
                                     adequately supervising its employees. In addition, the
                                     Washington BMC did not fully assess its automation and
                                     mechanization options. Consequently, the Washington BMC
                                     was using more workhours than necessary to process its mail
                                     volume.

    Workhours in Relation            Workhours were excessive in relation to workload. In
    to Workload                      FY 2004, the First Handling Piece (FHP) mail volume declined
                                     8 percent (9 million pieces), while workhours used to process
                                     this mail decreased 4.4 percent (60,760 workhours) from
                                     FY 2003 levels. Similarly, the overtime rate4 used to process
                                     this mail increased from 12.36 percent in FY 2003 to
                                     16.88 percent in FY 2004, an increase of nearly 37 percent.
                                     This means the Postal Service is not adjusting workhours and
                                     overtime usage in proportion to decreased mail volume.




4
    The overtime rate is determined by dividing mail processing overtime workhours by total mail processing workhours.




                                                           4
Efficiency Review of the Washington                                                     NO-AR-06-003
 Bulk Mail Center



                               Additionally, the increase in overtime has led to a dramatic
                               increase in the number of craft employees on the high earner
                               list. Excessive overtime results in higher labor costs because
                               overtime rates are 50 percent more than the standard hourly
                               rate. In pay year 2004, 83 out of 734 craft employees
                               (11.3 percent) at the Washington BMC earned more than
                               $70,000, while in pay year 2003, 10 out of 751 (1.3 percent)
                               earned more than $70,000. (See Table 3.) Base salaries for
                               these employees ranged from $40,869 to $52,181.

                                             Table 3. Washington BMC High Earners

                                                   Number of                         Percentage of
                                                   Employees        Total Number      Employees
                                                  Earning More         of Craft      Earning More
                                      Pay Year    than $70,000       Employees       than $70,000
                                        2003           10                751              1.3
                                        2004           83                734             11.3

 Comparison to Other           The Washington BMC has been one of the least productive
 Bulk Mail Centers             BMCs during the period FY 2003 through Accounting Period
                               (AP) 6, FY 2005. For example, in FY 2003, the Washington
                               BMC ranked 15 out of 21 BMCs in overall productivity based
                               on actual productivity (volume per workhour). In FY 2004 and
                               through AP 6, FY 2005, the Washington BMC ranked 17 out
                               of 21 BMCs in overall productivity. Table 4 shows the overall
                               ranking as well as the Washington BMC’s ranking for major
                               parcel sorting operations from FY 2003 to AP 6, FY 2005.

                                      Table 4. Washington BMC Productivity Ranking

                                                          FY 2003    FY 2004       FY 2005
                                Operation                  Rank       Rank          Rank
                                Machinable Parcels*         18         20            20
                                Small Parcel and             9         18            18
                                Bundle Sorter**
                                Sack                         14         19            20
                                Nonmachinable                 9         18            14
                                Outside
                                Overall                      15         17            17
                                *Productivity ranking is based on FHP volume.
                                **Only 18 BMCs have a Small Parcel Bundle Sorter operation.

 Target Productivities         The Washington BMC has not achieved target productivity
                               levels for the past two fiscal years for its mail processing
                               operations. For example, in FYs 2003 and 2004, the



                                                  5
Efficiency Review of the Washington                                                                NO-AR-06-003
 Bulk Mail Center


                                  Washington BMC only achieved 84 percent and 77 percent of
                                  its target productivity levels, respectively. Target productivity
                                  levels are based on total pieces of mail that employees could
                                  process for each workhour of an operation. Achieving
                                  established productivity levels could lead to a reduction in
                                  workhours. For example, the nonmachinable outside (NMO)
                                  operation was achieving 29 percent of its national target level
                                  of 116 pieces per workhour in FY 2004. If this operation
                                  achieved its national Breakthrough Productivity Index
                                  (BPI) target level, the Washington BMC could save over
                                  109,000 processing workhours in one operation.

    Mechanization                 Some Washington BMC operations could improve productivity
    Opportunities                 through mechanization. For example, the Washington BMC
                                  does not have a material handling equipment system to
                                  enable efficient processing of mail containers. The towveyor5
                                  system, which allowed mail containers to be moved
                                  throughout the facility, was shut down because it constantly
                                  needed repairs. This resulted in additional workhours
                                  because power equipment operators were required to
                                  transport mail manually between operations. We observed
                                  many instances where power equipment operators were
                                  sometimes unproductive and loosely supervised and noted
                                  they were high earners (earning more than $70,000) because
                                  of high overtime usage.




                                      Illustration 2. Forklifts were used to transport mail in the absence
                                      of a towveyor (April 16, 2005, 11:30 p.m.)

5
 The towveyor is an endless chain moving in a floor slot used to move over-the-road (OTR) and in-house
containers. It permits transportation of mail within the BMC without the need for equipment operators.




                                                        6
Efficiency Review of the Washington                                                                  NO-AR-06-003
 Bulk Mail Center



                                  Also, we observed idle employees in the NMO6 manual
                                  operation. Currently all NMOs are worked manually.




                                  Illustration 3. Idle employees in the NMO operation (April 12, 2005,
                                  11:54 a.m.)

                                  Additionally, employees used the sack sorting machine to
                                  process parcels instead of using more efficient methods. As
                                  shown in Table 5, actual and target productivities for sack
                                  processing are below that of the machinable parcel and small
                                  parcel and bundle sorter operations. Table 5 shows that the
                                  APPS processes three times as much mail as the sack sorter
                                  (586 pieces per workhour versus 168 pieces per workhour).7




6
  Standard postal equipment cannot sort NMO parcels because the size or weight exceeds machine capacity, or
some other aspect of the parcel requires manual handling.
7
  Elimination of the sack processing machines would necessitate additional workhours to unload and cull sack mail
for processing by other equipment. Actual and target productivities for the machinable parcels, small parcel and
bundle sorter, and APPS do not include these workhours.




                                                         7
Efficiency Review of the Washington                                                        NO-AR-06-003
 Bulk Mail Center


                                    Table 5. FY 2004 National BMC Actual and Target Productivity
                                             Ratios for Mechanized/Automated Sack Processing
                                             Operations

                                    (Units in Total Pieces Handled Volume per Workhour)
                                                                            FY 2004       FY 2004
                                                                             Actual        Target
                                                  Operation               Productivity  Productivity
                                     Machinable Parcels                       325           379
                                     Small Parcel and Bundle Sorter           235           366
                                     Sack Sorter Processing                   168           320
                                     APPS*                                    586           630

                                    *APPS data is through AP 11, FY 2005 (August 31, 2005). APPS were
                                    not used in FY 2004.

                                    Furthermore, sack processing machines require a large
                                    amount of space,8 an inventory of sacks, and additional
                                    handling to unload and transport the sacks.

                                    We also found that trays were being processed on the sack
                                    sorter, which resulted in loose mail that required additional
                                    handling. (See Illustrations 4 and 5.)




                                    Illustration 4. Trays dumped onto the sack sorter machine broke
                                    open, resulting in loose mail (April 12, 2005, 10:34 a.m.).




8
    Sack sorters at the Washington BMC currently occupy 17,500 square feet.




                                                          8
Efficiency Review of the Washington                                                   NO-AR-06-003
 Bulk Mail Center




                               Illustration 5. Excessive amounts of loose mail that had to be worked
                               manually. To expedite processing, this mail could have been faced
                               on the Automated Facer Canceller System (AFCS) in the adjacent
                               Southern Maryland Processing and Distribution Center (P&DC)
                               (April 12, 2005, 2:28 p.m.)

 Causes and Impact on          Management at the Washington BMC had addressed
 Operations                    operational efficiency by reducing workhours in response to
                               budgeted workhours. As a result, they had reduced FY 2003
                               workhours by approximately 120,000 (8.59 percent) from
                               FY 2002 levels.

                               These conditions occurred because Washington BMC
                               management did not evaluate operational efficiency by
                               benchmarking operations against other BMCs, assessing its
                               machine use, analyzing workhour trends, and assessing its
                               options for automation and mechanization. Appendix C
                               provides suggestions to improve Washington BMC efficiency.

                               We also found that employees at the Washington BMC
                               needed proper supervision. (See Illustrations 5 through 7.)
                               For example, employees were:

                                      •   Late to their assigned workstations at the start of their
                                          tour, took long breaks, and sat idle for lengthy
                                          periods.

                                      •   Not promptly directed to empty induction slides and
                                          OTR containers, which resulted in a high recycle rate
                                          and low productivity.



                                                   9
Efficiency Review of the Washington                                                      NO-AR-06-003
 Bulk Mail Center



                                      •   Not always placing containers at discharge slides,
                                          which led to additional handling.

                                      •   Unaware of BMC productivity goals.




                               Illustration 6. Parcel sorter machine discharge slides were not
                               cleared promptly, resulting in a high reject rate and poor productivity.
                               (April 12, 2005, 2:00 a.m.)




                               Illustration 7. Parcel sorter machine mail allowed to drop on floor.
                               This mail had to be manually loaded into mail containers. (April 16,
                               2005, 10:30 p.m.)




                                                  10
Efficiency Review of the Washington                                                     NO-AR-06-003
 Bulk Mail Center




                               Illustration 8. OTR containers were not emptied promptly, causing
                               mail to recycle and requiring additional processing. (April 15, 2005,
                               7:00 p.m.)

                                Consequently, the Washington BMC was using more
                                workhours than necessary based on its mail volume. Based
                                on raising the Washington BMC productivity to the average of
                                the top ten BMCs, we concluded that management could
                                reduce workhours by 387,898. We further concluded that
                                there are ample opportunities for this reduction based on
                                individual operations achieving 100 percent of target levels.
                                This would produce workhour reductions of 392,200. (See
                                Appendix D.) However, in anticipation of higher future
                                targets, Postal Service management agreed to reduce
                                workhours at the Washington BMC by 400,000 by the end of
                                FY 2010. These actions could produce a cost avoidance of
                                over $118 million over the next 10 years. (See Appendix E.)

 Postal Service Actions        During the audit, the Postal Service agreed to reduce
                               workhours more aggressively to improve efficiency. In
                               addition, management began to take corrective action on the
                               recommendations in this report. This proactive approach
                               included making organizational changes and developing an
                               action plan.




                                                  11
Efficiency Review of the Washington                                                   NO-AR-06-003
 Bulk Mail Center




 Recommendations               To improve efficiency, we recommend the manager, Capital
                               Customer Service District:

                                      1. Reduce workhours by 400,000 at the Washington Bulk
                                         Mail Center by the end of FY 2010, with an associated
                                         economic impact of over $118 million over 10 years.

                                      2. Periodically evaluate operating efficiency and staffing
                                         at the Washington Bulk Mail Center to determine
                                         whether further workhour adjustments are necessary
                                         based on workload.

                                      3. Consider installing a material container handling
                                         system and mechanizing the nonmachinable outside
                                         operation.

                                      4. Remove sack sorter machines from the Washington
                                         Bulk Mail Center to the extent possible.

                                      5. Improve supervision of employees.

 Management’s                  Management agreed with our finding, recommendations,
 Comments                      and associated monetary impact. Management’s response
                               indicated they have already begun to address the
                               recommended workhour reductions. Also, management
                               agreed to consider installing a material container handling
                               system and a mechanized solution for nonmachineable
                               outside parcels. They also agreed to reduce the utilization
                               of the sack sorters. Furthermore, management agreed that
                               proper supervision of employees is essential and tasked the
                               Washington BMC manager with addressing these concerns.
                               Management’s comments, in their entirety, are included in
                               Appendix F of this report.

 Evaluation of                 Management’s comments are responsive to the audit
 Management’s                  finding and recommendations. The comments indicate
 Comments                      management is taking a proactive approach to improving
                               efficiency. Management’s response also indicated they
                               reviewed the material container handling system (the
                               towveyor) and determined that installation costs significantly
                               outweigh the benefit. We consider this matter resolved.
                               Management’s actions, taken or planned, should correct the
                               issues identified in the findings.



                                                   12
Efficiency Review of the Washington                       NO-AR-06-003
 Bulk Mail Center




                                      APPENDIX A

                 CAPITAL METRO AREA CUSTOMER SERVICE
                 DISTRICTS BY THREE-DIGIT ZIP CODE AREA




Source: United States Postal Service Blue Pages




                                          13
         Efficiency Review of the Washington                                               NO-AR-06-003
          Bulk Mail Center




                                                     APPENDIX B

                                                PRIOR AUDIT COVERAGE


                                                      Report         Issue        Workhour        Monetary
                     Audit                            Number          Date       Reductions         Impact
Canton, OH P&DC9                                     NO-AR-05-013    9/22/2005       202,000        $64 million
San Francisco, CA ISC AMRU10                         NO-AR-05-012    8/29/2005         7,757       $2.6 million
Los Angeles, CA ISC11                                NO-AR-05-011    6/17/2005        85,000      $26.1 million
Los Angeles, CA ISC AMRU                             NO-AR-05-010    4/28/2005         5,450       $1.8 million
Akron, OH P&DC                                       NO-AR-05-009    3/30/2005       235,000        $74 million
Mansfield OH Main Post Office                        NO-AR-05-004   12/08/2004        52,000      $17.2 million
New York ISC                                         NO-AR-04-009    9/24/2004       320,000        $98 million
New York ISC AMRU                                    NO-AR-04-011    9/24/2004        30,000       $9.3 million
San Francisco, CA ISC and GSA12 Facility             NO-AR-04-006    3/31/2004       120,000       44.2 million
Oakland, CA ISC and the Regatta Facility             NO-AR-04-007    3/31/2004        25,000       $8.8 million
Springfield, VA BMEU13                               NO-AR-04-004    2/09/2004         2,775         $1 million
Columbia, MD BMEU                                    NO-AR-04-002   12/26/2003         3,960       $1.4 million
Southern MD BMEU                                     NO-AR-04-001   12/24/2003        20,240       $8.4 million
San Francisco, CA BMEU                               AO-AR-03-002    9/25/2003        18,000       $6.9 million
Los Angeles, CA BMEU                                 AO-AR-03-001    7/31/2003        28,000       $9.3 million
Seattle, Minneapolis, and Des Moines BMEU            CQ-AR-03-001    3/28/2003        15,053       $0.6 million
Colorado/Wyoming Performance Cluster BMEU            CQ-AR-02-001    9/26/2002        15,947         $1 million

Totals                                                                              1,184,182    $375 million




         9
           Processing and Distribution Center
         10
            Air Mail Records Unit
         11
            International Service Center
         12
            General Services Administration
         13
            Business Mail Entry Unit




                                                           14
Efficiency Review of the Washington                                                              NO-AR-06-003
 Bulk Mail Center


                                               APPENDIX C

                     WASHINGTON BULK MAIL CENTER
                 SUGGESTIONS FOR IMPROVING EFFICIENCY14
     9   Send loose mail to the adjacent P&DC for processing on the AFCS.
     9   Improve scheduling of employees.
     9   Send all service area barcoded mail directly to the SSIU.
     9   Inform employees of productivity goals and reward them accordingly.
     9   Streamline the process to report and clear mail jams.
     9   Closely monitor overtime usage.
     9   Redesign sorting schemes for parcel sorters by moving the high-volume primary sort
         operation for the local service area to the secondary/SSIU sort operation. If
         necessary, analyze mail flow and bin density.
     9   Acquire a strapping machine and ensure that employees feed only securely bound
         letter trays onto the equipment.
     9   Increase usage of the universal dumper in the NMO operation.
     9   Surplus the unused wrapping machine in the NMO area.
     9   Use a mechanized belt to unload trucks.
     9   Ensure that letter trays are not placed on the sack sorter machines.
     9   Ensure that parcel sorters’ barcode applicators are functioning.
     9   Improve scheduling of preventive maintenance.
     9   Review employee keying errors, take corrective actions, and reward good
         performance.
     9   Ensure that an adequate supply of mail containers is available (OTRs, Postal Paks,
         and other containers).




14
  These items present options to management as possible sources of workhour reductions. These options are not
recommendations and management may or may not implement them at their discretion.




                                                      15
Efficiency Review of the Washington                                                 NO-AR-06-003
 Bulk Mail Center


                                                         APPENDIX D

                                          POTENTIAL WORKHOUR SAVINGS AT
                                           WASHINGTON BULK MAIL CENTER

Source: USPS BPI data

                                                                                          Percentage   Workhours
                                                             FY 2004                          of            at       Potential
                                FY 2004       FY 2004         Actual        Target       Achievement   100 Percent   Workhour
 Major Operation                Volume       Workhours     Productivity   Productivity     (Target)        BPI       Savings
 Machinable Parcels
 (Primary)                     45,860,346     204,240          225            437           51%         104,944       99,296
 Machinable Parcels
 (Secondary)                   37,984,816     129,680          293            338           87%         112,381       17,299
 Small Parcel and Bundle
 Sorter                        18,204,150     114,397          159            366           43%          49,738       64,659

 Sack Processing               21,981,810     169,357          130            320           41%          68,693       100,664

 NMO                           5,210,716      155,002          34             116           29%          44,920       110,282

 Total                                                                                                                392,200




                                                               16
Efficiency Review of the Washington                                      NO-AR-06-003
 Bulk Mail Center




                                         APPENDIX E

        WASHINGTON BULK MAIL CENTER COST AVOIDANCE
                (FUNDS PUT TO BETTER USE)

                                         Total
                                        Yearly           Cost Avoidance
                                       Workhour           (10 Years with
                   Year
                                       Reduction            Escalation)

        FY 2006 - 2015
        (100,000 hours per year for     400,000           $160,328,387
        years 1 - 4 escalated over
        10 years)
                                      Present Value
                                                          $118,383,220
                                       at 5 percent
                                       for 10 years

NOTES

    •     The 400,000 workhour reduction was based on Postal Service management’s
          plan to reduce workhours over a 4-year period, based on FY 2004 usage of
          approximately 1.3 million workhours.
    •     The cost avoidance was calculated using the savings in hours multiplied by the
          escalated labor rate over a 10-year period.
    •     The net present value was calculated using the discount rate of 5 percent over a
          10-year period.
    •     Labor rates were based on the Postal Service’s March 2004 published rates for
          a level 05 (PS-05) mail processing clerk.
    •     The yearly escalation factor is 2.7 percent, based on the Postal Service’s
          Decision Analysis Factors effective October 2004.

FUNDS PUT TO BETTER USE--Funds that can be used more efficiently by
implementing recommended actions.




                                             17
Efficiency Review of the Washington                 NO-AR-06-003
 Bulk Mail Center




                       APPENDIX F. MANAGEMENT’S COMMENTS




                                      18
Efficiency Review of the Washington        NO-AR-06-003
 Bulk Mail Center




                                      19
